July 24, 2009

LAWRENCE K. JAMES
DISTRICT MANAGER, ARIZONA DISTRICT

SUBJECT: Audit Report – Fiscal Year 2009 Phoenix Financial Risk Audit
         (Report Number FF-AR-09-200)

This report presents the results of our audit of financial risk at selected units in Phoenix,
AZ (Project Number 09BD011FF000). We conducted this audit at the

                                  . This self-initiated audit addresses financial risk
based on factors evaluated by U.S. Postal Service Office of Inspector General (OIG)
risk models. See Appendix A for additional information about this audit.

Conclusion

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records and, generally, the internal controls we examined
were in place and effective. However, we identified internal control and compliance
issues related to inactive customer trust accounts, disbursements, excess stamp stock,
SmartPay purchase cards, and value-added refunds (VAR). The issue related to
inactive customer trust accounts is a repeat issue from a prior audit.

We identified $166,094 in monetary impact for recoverable revenue loss1 and
unrecoverable questioned costs,2 and $96,750 in non-monetary impact for accountable
items at risk3 and disbursements at risk.4

We believe these conditions are attributable primarily to insufficient managerial
oversight of financial operations at the units. For example, management did not review
closeout documentation and no-fee money order transactions to ensure they were
supported. The
                                                                        , and many of the
issues identified in this report occurred before their arrival. When controls are not
functioning as prescribed, the Postal Service is at an increased risk of losing cash,
accountable items, and revenue without detection, and misstating financial records. We

1
  Revenue that can be collected for goods delivered or services rendered.
2
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.
3
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
4
  Disbursements made where proper Postal Service internal controls and processes were not followed.
Fiscal Year 2009 Phoenix Financial Risk Audit                         FF-AR-09-200


referred a matter to the Office of Investigations for further review and disposition as
deemed appropriate. Appendix B presents a detailed analysis of the conditions
identified during our audit. Appendix C presents the results of our accountability
examinations. Appendix D presents the details of the $166,094 monetary impact, and
Appendix E presents the detail of the $96,750 non-monetary impact. We will report
these monetary and non-monetary impacts in our Semiannual Report to Congress.

We recommend the District Manager, Arizona District, direct unit management to:

1. Develop and implement an action plan with milestones to address the internal
   control issues at the units identified in this report.

Management’s Comments

Management agreed with the findings, recommendation, and monetary and non-
monetary impacts. Management developed and implemented an action plan that
addressed all 11 specific action items outlined in Appendix B. See Appendix G for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our findings and
recommendation, and the actions taken should correct the issues discussed in the
report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial-West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment




                                                2
Fiscal Year 2009 Phoenix Financial Risk Audit       FF-AR-09-200




cc: Joseph Corbett
    William P. Galligan
    Sylvester Black
    Robert J. Pedersen
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Steven J. Juhl
    Steven R. Phelps
    Katherine S. Banks




                                                3
Fiscal Year 2009 Phoenix Financial Risk Audit                                          FF-AR-09-200


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the U.S. Postal Service recognizes revenue from
operations. The term “post offices” includes main offices, stations, and branches. The
postmasters or installation heads are responsible for collecting all receipts to which the
offices are entitled, accounting for all funds entrusted to them, and ensuring the offices
meet all revenue and accounting objectives. BMEUs are established for authorized
mailers to present business mailings.

The OIG performs periodic financial risk assessments. We selected high-risk units
located in Phoenix, using OIG developed risk models.5 The models include risk factors
such as revenue, local expenses, refunds, miscellaneous expenses, employee items,
master trust balances, excess stock, override transactions, inactive customer trust
accounts, and vending deposit compliance. The four units addressed in this report
reported approximately $45.9 million of revenue in fiscal year (FY) 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine, at the selected units, whether internal
controls were in place and effective and whether financial transactions were reasonably
and fairly presented in the accounting records, for the following items:

    •   Stamp, money order, and cash accountability;
    •   Financial accounting and reporting;
    •   Disbursements;
    •   Vending;
    •   Mail acceptance, verification and clearance;
    •   Customer trust accounts;
    •   Business reply mail (BRM) and postage due (PD) processing; and
    •   Transaction overrides.

To accomplish our objectives, we audited four judgmentally selected units located in
Phoenix. We selected the units based on dollar value of inactive trust account
balances, high percentage of disbursements compared to revenue, greater than
average no-fee money order transactions, excess stamp stock, high-dollar value of
miscellaneous expenses, and outstanding vending balances with no sales activity. The
units included:




5
 We used the Performance Analyses and Risk Indicators Scans (PARIS) Financial Model, Business Mail Entry Unit
Model and Vending Model, which are based on financial data in the Enterprise Data Warehouse and PostalOne!.


                                                      4
 Fiscal Year 2009 Phoenix Financial Risk Audit                                FF-AR-09-200




 We performed accountability examinations, analyzed customer trust accounts, and
 evaluated whether the internal control structure over financial accounting and reporting,
 disbursements, and safeguarding of assets was implemented and functioning as
 designed. We judgmentally selected and reviewed transactions generated for the April
 2008 through March 2009 reporting periods related to disbursements and no-fee money
 orders. We reviewed the vending removal procedures at the                               .
 In addition, we reviewed all BRM/PD customer accounts in the Phoenix area for
 inactivity because those customer accounts appear under the same finance number as
 the               customer accounts.

 We traced recorded financial transactions to and from supporting documentation and
 assessed the reliability of computerized data by verifying the computer records to
 source documents. We used Postal Service instructions, manuals, policies, and
 procedures as criteria to evaluate internal controls and data reliability. We interviewed
 supervisors and employees and observed operations at these judgmentally selected
 Postal Service units. We interviewed the District Finance Manager to determine what
 procedures the District has in place to monitor operations at post offices and BMEUs.

 We conducted this audit from March through July 2009 in accordance with generally
 accepted government auditing standards and included such tests of internal controls as
 we considered necessary under the circumstances. Those standards require that we
 plan and perform the audit to obtain sufficient, appropriate evidence to provide a
 reasonable basis for our findings and conclusions based on our audit objectives. We
 believe that the evidence obtained provides a reasonable basis for our findings and
 conclusions based on our audit objectives. We discussed our observations and
 conclusions with management on May 28, 2009, and included their comments where
 appropriate.

 PRIOR AUDIT COVERAGE

                                    Final
                                   Report        Monetary
 Report Title   Report Number       Date          Impact                  Report Results
FY 2007          FF-AR-07-133      3/27/07        $39,031   The report disclosed internal control and
Financial                                                   compliance issues relating to inactive
Installation                                                BRM/PD accounts, outstanding employee
Audit –                                                     items, and cash and stamp
x                                                           accountabilities. Management agreed with
x                                                           the findings and took corrective action.
x                                                           However, our current audit report
                                                            discusses a repeat condition relating to
                                                            inactive BRM/PD accounts.




                                                  5
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                      FF-AR-09-200



                                                 APPENDIX B: DETAILED ANALYSIS

 Internal
                                                                                                                   Specific Actions
 Control                       Condition                    Criteria                      Cause
                                                                                                                      Required
Deficiency
                                                      Customer Trust Accounts
    1          Management at post offices in Phoenix Handbook F-101,     The BRM Clerk at the                      Monitor and close
               did not monitor BRM/PD accounts for      Field Accounting stated the unit runs balance reports      inactive BRM/PD
               inactivity. Specifically, of the 4,250   Procedures,      monthly to monitor and resolve            trust accounts.
               BRM/PD accounts in Phoenix post          Section 17-6,    inactive accounts, but he must have
               offices, we identified 289 at 16 post    January 2009     overlooked the accounts at
               offices with inactive account balances                        .
               totaling $118,934. See Appendix F for
               a list of inactive BRM/PD accounts by                     The BRM Clerk at the
               post office. See Appendix D for                                       stated she did not have a
               monetary impact associated with                           process   to monitor accounts for
               inactive BRM/Postage Due accounts.                        inactivity.
                                                                           The                Clerk did not know
                                                                           why the other post offices in Phoenix
                                                                           did not monitor the accounts for
                                                                           inactivity. However, a District
                                                                           Financial Control and Support (FCS)
                                                                           Analyst stated FCS sends out
                                                                           notifications to units with inactive
                                                                           accounts but does not follow-up to
                                                                           ensure the accounts were resolved.




                                                                 6
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                                               FF-AR-09-200



 Internal
                                                                                                                                            Specific Actions
 Control                             Condition                              Criteria                               Cause
                                                                                                                                               Required
Deficiency
     2             The                did not close 37                Handbook F-101,          Management stated that every month           Use the balances
                   inactive permit imprint (PI) and                   Section 16-7             they review the cancellations report         report to monitor
                   additional postage (ADDPOS)6                                                from PostalOne! and resolve the              and close inactive
                   accounts with balances totaling                                             accounts listed on that report. They         PI and ADDPOS
                   $11,999. Specifically, as of April 13,                                      stated they were in the process of           trust accounts.
                   2009, there were:                                                           resolving inactive accounts listed on
                                                                                               the March cancellation report.
                   •   18 accounts totaling $8,046, which                                      Management also stated the accounts
                       became inactive in March and April                                      that were inactive before March did
                       2009.                                                                   not appear on prior cancellations
                                                                                               reports.
                   •   19 accounts totaling $3,953, which
                       became inactive before March                                            On April 25, 2009, a headquarters
                       2009.                                                                   Financial Systems Specialist informed
                                                                                               field units the cancellation functionality
                   See Appendix D for monetary impact                                          of PostalOne! had been disabled.
                   associated with inactive PI/ADDPOS                                          The prior and pending Cancellation
                   accounts.                                                                   Reports in PostalOne! should not be
                                                                                               used because they are inaccurate and
                                                                                               not current. Rather, units should use
                                                                                               the balances report from PostalOne!
                                                                                               to monitor and resolve inactive
                                                                                               customer trust accounts.
       3           Management at the                                  Handbook F-101,          The                         Manager          Collect the unpaid
                                         allowed a                    Section 17-4.1.e         stated the mailer comes in every             balance from the
                   customer trust account to accumulate a             and f                    month with a check to pay for the            customer and
                   negative balance totaling $4,948. See                                       mail. He stated that because the             ensure the
                   Appendix D for monetary impact                                              customer makes regular payments,             customer has
                   associated with the negative account                                        the unit will deliver the mail on a daily    sufficient funds on
                   balance.                                                                    basis.                                       deposit before
                                                                                                                                            delivering the mail.


 6
     ADDPOS accounts are created in PostalOne! to collect additional postage and maintain the activity to pay additional postage.


                                                                                   7
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                                      FF-AR-09-200



 Internal
                                                                                                                                   Specific Actions
 Control                             Condition                              Criteria                      Cause
                                                                                                                                      Required
Deficiency
                                                                         Disbursements
       4           Management at the                  and             Handbook F-101,  Management at both units stated they        Properly complete,
                                          could not provide           Section 21-1     were unaware the forms were not             review and retain
                   documentation to support refunds                                    completed properly or were missing.         support
                   totaling $24,199, or 3 percent of the                               The                         Supervisor      documentation for
                   $946,138 refunds reviewed.7                                         stated the disbursements were issued        refund
                   Specifically:                                                       before her arrival at the unit but stated   disbursements.
                                                                                       her clerks have been instructed to
                   •   The              could not provide                              ensure all disbursement are properly
                       documentation for refunds totaling                              supported during the closeout.
                       $19,985, or 2 percent of the
                       $933,353 refunds reviewed.

                   •   The                        could not
                       provide documentation for refunds
                       totaling $4,214, or 33 percent of the
                       $12,785 refunds reviewed.
                   See Appendix D for monetary impact
                   associated with unsupported refunds.




 7
     There were $1,114,402 in refunds disbursed by the two units for the period under review.


                                                                                   8
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                                              FF-AR-09-200



 Internal
                                                                                                                                           Specific Actions
 Control                             Condition                               Criteria                             Cause
                                                                                                                                              Required
Deficiency
     5             Management at the                and               Publication 189,             Management did not review the           Properly complete,
                                        could not provide             Financial Aid,               closeout documentation to ensure that   review, and retain
                   documentation to support no-fee                    page 2 verify                all disbursements were properly         documentation to
                   money order transactions totaling                  disbursement                 supported.                              support no-fee
                   $24,868, or 11 percent of $221,383                 transactions,                                                        money order
                   reviewed.8                                         dated May 2008                                                       disbursements.

                   •   The              could not provide             Handbook F-101,
                       documentation to support 27 no-fee             Section 2-4
                       money order transactions totaling
                       $22,152, or 14 percent of the
                       $156,597 amount reviewed.

                   •   The                        could not
                       provide documentation to support
                       five no-fee money order
                       transactions totaling $2,716, or 4
                       percent of the $64,786 amount
                       reviewed.
                   See Appendix D for monetary impact
                   associated with unsupported no-fee
                   money order transaction.




 8
     The units issued a total of $375,863 of no-fee money orders during the period under review.


                                                                                   9
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                                         FF-AR-09-200



 Internal
                                                                                                                                      Specific Actions
 Control                         Condition                               Criteria                            Cause
                                                                                                                                         Required
Deficiency
     6         The                automatically issues             Handbook F-101,           The               Supervisor stated      Have customers
               refunds of Post Office (PO) box fees                Section 21-1              the unit’s process is to automatically   complete and sign
               using change of address forms rather                                          issue refunds for PO box fees            PS Form 3533
               than waiting for the customer to submit                                       whenever a customer submits a            before processing
               a Postal Service (PS) Form 3533,                                              change of address and mails the          PO box refunds.
               Application for Refund of Fees,                                               refund to the customer.
               Products, and Withdrawal of Customer
               Accounts. Specifically, the unit issued
               refunds of PO box fees, totaling
               $17,878, or 53 percent of the PO box
               refunds reviewed, without a customer
               signature on the form.9 See Appendix
               D for monetary impact associated with
               unsupported refunds.
      7        The                processed $4,783 in              Handbook F-101,           The               Supervisor stated      Instruct Mailing
               improper refunds. Specifically, the unit:           Section 21-1              that Mailing Requirements directed       Requirements and
                                                                                             her to process the refunds.              the              to
               •    Refunded cash, rather than stamps,                                                                                adhere to the
                    for precancelled stamps totaling                                         A Mailing Requirements Specialist        policy when
                    $3,323.                                                                  stated the unit processed stamps for     processing
                                                                                             cash on their own. He further stated,    refunds.
               •    Did not collect two administrative                                       one customer is disputing the large
                    refund fees totaling $1,110.                                             administrative fee and that they
                                                                                             decided to refund the PI fees for
               •    Refunded PI application and annual                                       customer service.
                    fees totaling $350 after customer
                    mailed four times.
               See Appendix D for monetary impact
               associated with improper
               disbursements.



 9
     The           issued a total of $45,110 in PO box refunds during the period under review.


                                                                               10
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                                                FF-AR-09-200



 Internal
                                                                                                                                              Specific Actions
 Control                          Condition                              Criteria                              Cause
                                                                                                                                                 Required
Deficiency
     8          The              and                              Handbook F-101,           A retail associate at the                        Send
                         used improper methods of                 Sections 19-1.1           stated the refunds were for bulk                 disbursements
                payment for disbursements totaling                and 21-1.2                mailers who mistakenly purchased                 over $500 to
                $10,965. Specifically:                                                      additional postage with postage                  Scanning and
                                                                                            validation imprinter (PVI) but really            Imaging for
                •    The              issued                                                wanted to deposit funds in their trust           processing.
                     disbursements over $500 using                                          accounts. The customers returned
                     cash or no-fee money orders                                            the next day, and the associates
                     totaling $3,122.                                                       refunded the PVIs with cash or no-fee
                                                                                            money orders and deposited the
                •    The                       issued                                       funds into the customers trust
                     disbursements over $500 using no-                                      accounts.
                     fee money orders totaling $7,843.
                See Appendix D for monetary impact                                                      instructed the
                associated with improper methods of                                                  to process the refunds using
                payment.                                                                    no-fee money orders rather than
                                                                                            having the customer wait for Scanning
                                                                                            and Imaging10 to process the refunds.




 10
   The Postal Service has deployed imaging and workflow technologies that enable the Scanning and Imaging Center to convert hard copy documents to
 electronic documents. These documents are scanned, indexed, and electronically transmitted to the appropriate Accounting Services location for processing.


                                                                               11
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                             FF-AR-09-200



 Internal
                                                                                                                          Specific Actions
 Control                             Condition                       Criteria                     Cause
                                                                                                                             Required
Deficiency
                                                                Excess Stamp Stock
       9           Management at the                            Handbook F-101,  The Supervisor stated during the last    Reduce the
                                         did not maintain       Sections 11-3.4  rate increase her unit ran out of        accountability
                   stamp stock levels within the                and 14-2.3       Forever stamps. She did not want         levels to the limits
                   authorized limits. Specifically:                              this to happen again; therefore, she     established by
                                                                                 increased the amount of Forever          Postal Service
                   •    The unit exceeded the total office                       stamps. Additionally, she supplied the   policy.
                        accountability limit by $91,386 or 92                    retail floor with all the soon to be
                        percent.11                                               obsolete stamp stock from the unit
                                                                                 reserve because of the pending rate
                   •    The unit allowed the retail floor                        increase.
                        stock to exceed the 2-week
                        postage sales limit by $25,244.12
                   See Appendix E for non-monetary
                   impact associated with excess stock.




 11
      The authorized total accountability limit for the           was $99,538.
 12
      The authorized 2-week postage sales limit for the             was $16,590.


                                                                         12
 Fiscal Year 2009 Phoenix Financial Risk Audit                                                                        FF-AR-09-200



 Internal
                                                                                                                     Specific Actions
 Control                       Condition                       Criteria                     Cause
                                                                                                                        Required
Deficiency
                                                         SmartPay Transactions
   10          One cardholder at the                      Administrative    The cardholder stated she was aware      Adhere to the
               did not follow proper SmartPay             Support Manual,   of the requirements, but these issues    policies of the
               Purchase Card Program procedures.          Section 722.633   occurred because of an oversight.        Purchase Card
               Specifically, the cardholder did not:      updated                                                    program.
                                                          January 1, 2009
               •   Obtain additional approval for one
                   $1,042 purchase that was approved     Handbook AS-
                   for $687.                             709, Purchase
                                                         Card Policies and
               •   Submit or receive eBuy approval       Procedures for
                   before purchasing scales totaling     Local Buying,
                   $1,871.                               Sections 332.11,
                                                         422.1, and 423.1,
               •   Reconcile and sign one bank           dated September
                   statement totaling $5,364. In         2008
                   addition, the Credit Card Approving
                   Official did not reconcile and sign
                   the statement.
               See Appendix D for monetary impact
               associated with unapproved SmartPay
               purchases and Appendix E for non-
               monetary impact associated with the
               unreconciled bank statement.
                                                         Value Added Refunds
   11          The              processed three          Handbook F-101,   The Supervisor could not provide a        Develop a
               duplicate VARs totaling $12,635.          Appendix V        reason why the forms were processed       procedure to
                                                                           twice but stated it was probably due to   prevent duplicate
                                                                           an oversight. A District FCS Analyst      processing of
                                                                           researched the disbursements and          refunds.
                                                                           determined Scanning and Imaging did
                                                                           not process the duplicate VARs.



                                                                   13
Fiscal Year 2009 Phoenix Financial Risk Audit                                                                      FF-AR-09-200


                APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the
audit, rounded to the nearest dollar. Shortages and overages presented are the total
value of all shortages and overages identified.


                                                                                                                                   Total



                                       Shortage




                                                                     Shortage




                                                                                              Shortage




                                                                                                                        Shortage
                                                      Overage




                                                                                    Overage




                                                                                                         Overage




                                                                                                                                           Overage
        Accountability

     Unit Reserve Stock                           -             -               -         -     -13                -               -                 -


     Retail Floor Stock                           -   $927          $797                  -   N/A         N/A          $797            $927




13
   The vending machine at the                              was removed from service, and stamp stock was transferred
to the unit reserve before our audit. However, the Supervisor stated he did not have time to verify the stamp stock
before transferring it to the unit reserve; therefore, we counted the unit reserve. We identified a $213 shortage in the
unit reserve. However, on April 30, 2009, the unit counted the retail floor stock and reported an overage of $963,
which management stated was related to the $213 shortage in the unit reserve. They had transferred stock from the
unit reserve to the retail floor but had not recorded the transfer. The unit reserve was short 100 stamp booklets and
500 postcards, and the retail floor stock was over by the same amounts in these categories.


                                                                    14
   Fiscal Year 2009 Phoenix Financial Risk Audit                                                FF-AR-09-200


                            APPENDIX D: MONETARY IMPACT SUMMARY

   This table presents the monetary impact results identified during the audit, rounded to
   the nearest dollar. We will report these funds in our Semiannual Report to Congress.

 Internal                                                                           Unrecoverable Questioned
 Control                                                    Recoverable                      Costs
Deficiency                  Description                      Revenue               Unsupported     Supported
        1        Inactive BRM/PD accounts                         $75,99414

        2        Inactive PI/ADDPOS
                                                                    3,65015
                 accounts

        3        Negative account balance                              4,948

  4 and 6        Unsupported refunds                                                        $42,077

        5        Unsupported no-fee money
                                                                                              24,868
                 order transactions

        7        Improper disbursements                                                                              $4,783

        8        Improper method of payment                                                                         6,75116

    10           Unapproved SmartPay
                                                                                                                       2,226
                 purchases

Appendix C       Retail floor stock shortage                                                                             797
Total                                       $166,094               $84,592                  $66,945                $14,557




   14
      As of June 5, 2009, the units closed 218 of the 289 accounts. The units refunded to customers or transferred to
   other accounts balances totaling $42,940. We are claiming the amount not refunded to customers or transferred to
   other accounts totaling $75,994 as monetary impact.
   15
      As of June 4, 2009, the unit closed 29 of the 37 accounts. The unit refunded $8,349 to customers and transferred
   $2,123 to account identifier code 126, Miscellaneous non-Postal Revenue; therefore, we are claiming the amount not
   refunded to the customers totaling $3,650 as monetary impact.
   16
      We identified improper payment for disbursements totaling $10,965; however, $4,214 of this total is also included in
   unsupported refunds.


                                                             15
Fiscal Year 2009 Phoenix Financial Risk Audit                             FF-AR-09-200



                   APPENDIX E: NON-MONETARY IMPACT SUMMARY

This table presents the non-monetary impact identified during the audit, rounded to the
nearest dollar. We will report these funds in our Semiannual Report to Congress.

    Internal
    Control                                               Accountable     Disbursements
   Deficiency                   Description               Items at Risk       at Risk
         9          Excess stamp stock                          $91,386

        10          Unreconciled bank statement                                     $5,364
 Total                                          $96,750         $91,386             $5,364




                                                 16
Fiscal Year 2009 Phoenix Financial Risk Audit                                              FF-AR-09-200



                       APPENDIX F: SUMMARY OF PHOENIX UNITS
                      WITH INACTIVE BRM/POSTAGE DUE ACCOUNTS

This table presents the inactive BRM/Postage Due accounts for units located in
Phoenix.

                                                                Number of
      Cost Center                                                Inactive           Balance of Inactive
                                    Unit Name                   Accounts                Accounts
                                                                               4                      $1,312

                                                                              14                       3,199

                                                                               8                       1,680

                                                                               1                          400

                                                                              11                       2,111

                                                                               4                          593

                                                                               5                          310

                                                                              42                       6,786

                                                                               1                          686

                                                                              98                      32,129

                                                                              36                      16,765

                                                                              15                       1,793

                                                                              21                       2,677

                                                                               5                       6,765

                                                                              18                      31,049

                                                                               6                      10,678
     Total                                                                  289                 $118,93417



17
  We rounded the account balances in this column to the next higher dollar for presentation purposes. The rounded
account balances total to $118,933. However, the total of the unrounded inactive account balances is $118,934.




                                                       17
Fiscal Year 2009 Phoenix Financial Risk Audit               FF-AR-09-200



                        APPENDIX G: MANAGEMENT’S COMMENTS




                                                18
Fiscal Year 2009 Phoenix Financial Risk Audit        FF-AR-09-200




                                                19
Fiscal Year 2009 Phoenix Financial Risk Audit        FF-AR-09-200




                                                20
Fiscal Year 2009 Phoenix Financial Risk Audit        FF-AR-09-200




                                                21
Fiscal Year 2009 Phoenix Financial Risk Audit        FF-AR-09-200




                                                22
